                                                   -                      -
                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS
                                                                                                 f


                                        CLOSEOUT MEMORANDUM                                     I

I Case Number: I02050020
                                                                           11           Page 1[of 1


                                                                                                 I/
         In May 2002, we received information that identified that a company' may have submitted
         proposals to the NSF Small Business Innovation Research (SBIR) Program, that were similar
         to proposals submitted to SBIR Programs at Department of Defense (DoD) and Depdment
         of Energy (DOE). We also learned that National Aeronautics and Space Administration
         (NASA) OIG had started an investigation of the company based on a referral from thJ
         Defense Contract Audit Agency (DCAA). DCAA had identified questionable salary charges
         between DoD and NASA SBIR contracts. Our office then joined the multi-agency
         investigation led by NASA-OIG Glenn Research Center, Cleveland, OH.                I1

         On September 3 and 4,2002, a multi-agency investigative team involving NSF-OIG, DOE-
         OIG, NASA-OIG, Defense Contract Audit Agency (DCAA), reviewed documents from 41
         different research awards to the company from NSF, NASA, DOD, DOE, and the               /I
         Department -ofCommerce from 1994 t02002. While we found-the m-any- awards had'kimilar
         or the same title and abstracts, the proposals were not identical and the research results
         reported to the various agencies were different. Based on our review, we found no evidence
         of duplicate research submitted. At that meeting, DCAA also provided the preliminaryI
         results of an investigative audit focusing on labor charges for calendar years 1999 and 2000.
         DCAA found that employees regularly charged their time to one or two projects and
         administrative time, which could result in higher indirect labor cost. DCAA had not
         completed the review of salary charges to SBIR awards and agreed to provide the resdts in
         January 2003.

         In January 2003, DCAA reported that on several SBIR awards from NSF, NASA and DOE,
         the Principal Investigators (PIS)for the company had charged significantly less time tc! the
         awards than were initially proposed and reported in progress reports. The NSF SBIR
         Program Officer said that PIS' lack of official time charged to NSF's SBIR awards was
         worrisome but not a serious issue because the PIS were involved in the research projects and
         actively communicated with NSF. The company also has a good reputation for completing
         SBIR projects and commercializing the research products. In March 2003, DCAA reported
         that the review of salary practices was continuing, however, DCAA had found no evidence of
         fraudulent charges. The multi-agency investigative team agreed to close the investigation
         and allow DCAA to resolve the remaining issues through the audit process.

         Accordingly, this case is closed.
                                                                                                     /I


                                                                                                     /I
                                                                                     NSF OIG Form 2 (1 1/02)
